OIG Investigative Reports, PSJA-ISD Trustee Pleads Guilty to Bribery Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
U.S. Attorney's Office
Southern District of Texas
Chuck Rosenberg * United States Attorney
FOR IMMEDIATE RELEASE:
Date: January 4, 2006
Nancy G.Herrera
Executive Assistant U.S. Attorney
Phone: 713/567-9301 Fax: 713/718-3415
or
John Yembrick
Public Affairs Specialist
P. O. Box 61129 Houston, TX 77208
Phone: 713/567-9388 Fax: 713/718-3389
Email: usatty.txs@usdoj.gov
Website: http://www.usdoj.gov/usao/txs
PSJA-ISD TRUSTEE PLEADS GUILTY TO BRIBERY SCHEME
(McALLEN, TX) – United States Attorney Chuck Rosenberg today announced that Pharr-San Juan-Alamo Independent School District ("PSJA-ISD") trustee Guadalupe Jaime Santa Maria, 54, has been convicted of conspiring to receive bribes from a local contractor in exchange for favorable votes on PSJA-ISD construction contracts.
Santa Maria pled guilty to the federal felony offense at a late afternoon hearing on Tuesday, January 3, 2006, before United States District Judge Ricardo Hinojosa.  Santa Maria faces a maximum sentence of five (5) years in federal prison, without parole, and a maximum fine of $250,000.  The court permitted Santa Maria to remain on bond pending his sentencing scheduled for March 17, 2006, at 9:30 a.m.
"Government is not for sale," said U.S. Attorney Chuck Rosenberg.  "Citizens have every right to expect - and demand - that government officials conduct their business in a lawful and proper manner.  We will continue to root out corruption wherever and whenever we find it."
Santa Maria was indicted along with Alonso Cardenas, Jr., 58, a McAllen-area general and masonry contractor in July 2005.   The indictment accused and both men now stand convicted of participating in a conspiracy to commit extortion, mail fraud, and bribery concerning a federally funded governmental agency between 2000 and 2004.  The scheme involved Cardenas providing money and services to Santa Maria in exchange for Santa Maria's influence as a school district trustee in the award of PSJA-ISD contracts to Cardenas.
At the re-arraignment hearing, Santa Maria admitted receiving $5,000 in cash from Cardenas in exchange for the award of a contract to one of Cardenas's companies for work at PSJA-ISD facilities mandated by the Americans with Disabilities Act.  Santa Maria also admitted accepting a total of $3800 in improvements and repairs to his home from Cardenas in exchange for his influence in the awarding of PSJA-ISD construction-related contracts.
Cardenas was convicted for his role in the conspiracy in August 2005, and is pending sentencing on March 20, 2006, at 9:30 a.m.
The case was investigated by agents with the McAllen Office of the Federal Bureau of Investigation, and the Dallas Regional Office of the U.S. Department of Education Office of Inspector General.  The case is being prosecuted by Assistant United States Attorney Larry Eastepp of the Public Corruption Section of the U.S. Attorney's Office.
# # #
Top
Printable view
Share this page
Last Modified: 01/05/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov